NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

DE'UNDRE TURNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I certify that on July 9, 2021, in accordance with the Court’s April 15, 2020
Order regarding the filing of documents, a single copy of the (1) Petition for Writ of
Certiorari, (2) Motion for Leave to Proceed InForma Pauperis, (3) Certificate of
Service, and (4) Declaration Verifying Timely Filing, was deposited with a third
party commercial carrier for delivery to the Court within three calendar days. A
copy of the same was served via e-mail upon the Solicitor General of the United
States, at SupremeCtBriefs@usdoj.gov.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
July 9, 2021

By:

s/Anshu Budhrani
Anshu Budhrani
Assistant Federal Public Defender
150 West Flagler Street, Suite 1700
Miami, Florida 33130-1555
(305) 530-7000

